Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      HIV TESTING IN
       HRSA-FUNDED
    HEALTH CENTER SITES




                    Daniel R. Levinson
                     Inspector General

                      January 2013
                     OEI-06-10-00290
EXECUTIVE SUMMARY: HIV Testing in HRSA-Funded Health Center Sites
OEI-06-10-00290

WHY WE DID THIS STUDY
Health center sites funded by the Health Resources and Services Administration (HRSA) provide
primary health care to millions of patients each year and are critical to efforts to test patients for
human immunodeficiency virus (HIV) and reduce its spread. Since 2006, the Centers for
Disease Control and Prevention (CDC) has recommended routine HIV testing—i.e., that patients
be tested as a routine part of care and be told they will be tested unless they decline. This
approach aims to expand testing to a wider patient population and increase testing rates. We did
this study to determine the extent to which HRSA-funded sites adopted four practices that CDC
recommended: (1) routine HIV testing of all patients 13–64 years of age; (2) not requiring
prevention counseling for all patients; (3) gaining patient consent for the HIV test in the same
way as for other screening and diagnostic tests; and (4) providing HIV tests as standard, opt-out
tests.

HOW WE DID THIS STUDY
We analyzed survey responses from 324 HRSA-funded sites; the results are projectable to the
estimated population of 5,275 sites that provide primary care. We determined the extent to
which sites adopted the four practices and how Federal recommendations influenced their written
HIV testing policies. We also asked sites to describe factors that affected their adoption of these
practices and their provision of HIV testing.

WHAT WE FOUND
Health center sites have not fully adopted all four practices recommended by CDC for routine
HIV testing. Regarding whom to test, for which CDC’s recommendation varies according to the
circumstances of individual health care providers, 20 percent of sites reported testing all patients
13–64 years of age; 1 percent tested all adults, but not teens; and 55 percent targeted testing to
high-risk patients. Regarding the other three practices, 29 percent adopted the practice regarding
prevention counseling; 27 percent adopted the practice regarding gaining patient consent for the
HIV test; and 15 percent adopted the practice regarding providing HIV tests as standard, opt-out
tests. Most sites had written HIV testing policies that were influenced by the recommendation.
Factors that affected adoption of the practices and affected HIV testing at sites included the
financial resources of sites and patients, existence of partnerships with other community
organizations, patient and staff perceptions about patient risk of contracting HIV, and patient
discomfort associated with HIV testing.

WHAT WE RECOMMEND
We recommend that HRSA require grantees to establish and report to HRSA two HIV testing
metrics: prevalence and positivity, as follows: (1) grantees should establish and report the
prevalence of undiagnosed HIV among their patient populations, and (2) grantees should report
HIV positivity (the proportion of patients who test positive among all those tested). We also
recommend that HRSA continue to provide guidance and education to grantees and sites
regarding the CDC-recommended practices and HIV testing. HRSA concurred with our
recommendations and described its activities to improve HIV testing in sites.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................7
Findings......................................................................................................10
           Health center sites have not fully adopted all four
           CDC-recommended practices ........................................................10
           The CDC recommendation influenced most health
           center sites’ written HIV testing policies .......................................12
           Health center sites reported that financial resources
           and other factors affected adoption of the
           CDC-recommended practices and affected HIV testing ................12
Conclusion and Recommendations ............................................................15
           Agency Comments and Office of Inspector General Response.....17
Appendixes ................................................................................................18
           A: CDC’s Revised Recommendations for HIV Testing
           of Adults, Adolescents, and Pregnant Women in
           Health-Care Settings ......................................................................18
           B: Point Estimates and Confidence Intervals................................22
           C: Agency Comments ...................................................................26
Acknowledgments......................................................................................31
                  OBJECTIVES
                  1. To determine the extent to which health center sites funded by the
                     Health Resources and Services Administration (HRSA) adopted
                     practices recommended by the Centers for Disease Control and
                     Prevention (CDC) for routine testing for human immunodeficiency
                     virus (HIV).
                  2. To determine the extent to which Federal recommendations for HIV
                     testing influenced health center sites’ written HIV testing policies.
                  3. To describe factors that affected adoption of the practices and affected
                     HIV testing in health center sites.

                  BACKGROUND
                  HIV Epidemic
                  HIV is the virus that causes acquired immune deficiency syndrome
                  (AIDS). In June 2012, CDC estimated that 1.2 million people in the
                  United States were living with HIV. 1 According to CDC, nearly one in
                  five of those people does not know his or her HIV status. 2 Traditionally,
                  groups at high risk for HIV included men who have sex with men, those
                  who have unprotected sex with people who have HIV, and those who
                  share injection drug needles. 3 However, according to CDC, the HIV
                  epidemic has spread beyond these traditional high-risk groups. CDC
                  states, “Since the 1980s, the demographics of the HIV epidemic in the
                  U.S. have changed; increasing proportions of infected persons are aged
                  [less than] 20 years, women, members of racial or ethnic minority
                  populations, persons who reside outside metropolitan areas, and
                  heterosexual men and women who frequently are unaware that they are at
                  risk for HIV.” 4 The changes in the populations affected by HIV are such

                  1
                    CDC, “Monitoring Selected National HIV Prevention and Care Objectives By Using
                  HIV Surveillance Data—United States and 6 U.S. Dependent Areas—2010.” HIV
                  Surveillance Supplemental Report. June 2012. Accessed at
                  http://www.cdc.gov/hiv/surveillance/resources/reports/2010supp_vol17no3/pdf/hssr_vol_
                  17_no_3.pdf on September 6, 2012.
                  2
                    CDC, HIV in the United States. March 2012. Accessed at
                  http://www.cdc.gov/hiv/resources/factsheets/PDF/HIV_at_a_glance.pdf on September 5,
                  2012.
                  3
                    CDC, HIV Prevalence Among Selected Populations: High Risk Populations. Accessed
                  at http://www.cdc.gov/hiv/topics/testing/resources/reports/hiv_prevalence/high-risk.htm
                  on April 25, 2012.
                  4
                    CDC, “Revised Recommendations for HIV Testing of Adults, Adolescents, and
                  Pregnant Women in Health Care Settings,” Morbidity and Mortality Weekly Report,
                  September 22, 2006. Accessed at
                  http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5514a1.htm on June 19, 2012.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                        1
                  that CDC no longer considers a traditional high-risk designation as the key
                  determinant for who should receive an HIV test.
                  CDC’s Recommendation for Routine HIV Testing
                  CDC’s recommendations regarding HIV testing have changed in recent
                  years. Prior to 2005, CDC recommended a focused approach to HIV
                  testing, including targeting high-risk groups, offering prevention
                  counseling for all patients, and gaining patient consent for tests through
                  HIV-specific consent forms. In 2005, CDC released recommendations to
                  certain settings and populations, including correctional facilities,
                  emergency rooms, and obstetric patients (i.e., pregnant women). The new
                  recommendations called for routine testing of patients in these settings and
                  groups, a departure from CDC’s prior guidance.
                  In 2006, CDC significantly changed its recommended approach for how
                  primary care providers should provide HIV tests, releasing a new
                  recommendation to expand routine testing to all health care settings. CDC
                  recommended that HIV testing be based, in part, on prevalence of
                  undiagnosed HIV in the patient population, rather than on patient risk
                  factors, and encouraged adopting four specific practices:
                  •    testing all patients aged 13–64 unless the patient has previously been
                       tested for HIV or the prevalence of undiagnosed HIV is less than
                       0.1 percent, in which case routine testing is no longer warranted;
                  •    not requiring prevention counseling for all patients;
                  •    gaining patient consent for the HIV test in the same way as for other
                       screening and diagnostic tests—i.e., not requiring separate consent;
                       and
                  •    providing HIV tests as standard, opt-out tests. 5
                  CDC recommended these practices to expand HIV testing to a wider
                  patient population, reduce the stigma that surrounds testing, and increase
                  the number of people who know their status. CDC cited research
                  indicating that those who know they have HIV are less likely to transmit
                  the virus for two reasons: first, the majority of patients who learn they
                  have HIV substantially reduce sexual behaviors that may transmit the
                  virus, and second, patients who know they have HIV typically begin
                  medications that combat HIV, which lowers the amount of the virus in


                  5
                   CDC, “Revised Recommendations for HIV Testing of Adults, Adolescents, and
                  Pregnant Women in Health Care Settings,” Morbidity and Mortality Weekly Report,
                  September 22, 2006. Accessed at
                  http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5514a1.htm on June 19, 2012.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                    2
                  their bodies and consequently reduces their risk of transmitting HIV to
                  others. 6 See Appendix A for full text of the 2006 CDC recommendation.
                  Determining Whom to Test. Providers have historically targeted HIV tests
                  specifically to high-risk patients. Targeted testing focuses on populations
                  that engage in high-risk behaviors, such as intravenous drug use and
                  certain sexual activities. Because HIV has reached a broader population,
                  CDC now recommends that primary care providers test all patients aged
                  13–64, with two exceptions. First, CDC notes that if the patient has
                  previously been tested, HIV tests should be offered at clinician’s
                  discretion. Second, CDC notes that if the prevalence of undiagnosed HIV
                  infections in the patient population is known to be less than 0.1 percent,
                  routine testing would no longer be recommended. 7 According to the
                  American College of Physicians and the HIV Medicine Association, a
                  provider would need to test approximately 4,000 patients to establish a
                  prevalence of undiagnosed HIV infection of less than 0.1 percent. 8
                  Providing Prevention Counseling. CDC formerly encouraged—and some
                  States required—providers to give all patients prevention counseling
                  before administering an HIV test. 9, 10 During such counseling, providers
                  gave patients information about risk factors and how to prevent
                  transmission of HIV; some providers offered personalized risk
                  assessments. 11 CDC now recommends that prevention counseling not be
                  required as a part of HIV testing. CDC cited research that found that
                  providers perceived prevention counseling to be prohibitively time
                  consuming, especially in busy health care settings, and that counseling



                  6
                    CDC, “Revised Recommendations for HIV Testing of Adults, Adolescents, and
                  Pregnant Women in Health Care Settings,” Morbidity and Mortality Weekly Report,
                  September 22, 2006. Accessed at
                  http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5514a1.htm on June 19, 2010.
                  7
                    Ibid.
                  8
                    A. Qaseem; V. Snow; P. Shekelle; R. Hopkins, Jr.; and D. Owens. “Screening for HIV
                  in Health Care Settings: A Guidance Statement From the American College of
                  Physicians and HIV Medicine Association.” Annals of Internal Medicine.
                  January 20, 2009. Accessed at
                  http://annals.org/article.aspx?volume=150&issue=2&page=125 on September 5, 2012.
                  9
                    CDC, “Technical Guidance on HIV Counseling,” Morbidity and Mortality Weekly
                  Report, January 15, 1993. Accessed at
                  http://www.cdc.gov/mmwr/preview/mmwrhtml/00020645.htm on June 19, 2012.
                  10
                     S. Neff and R. Goldschmidt, Compendium of State HIV Testing Laws.
                  September 2011. Accessed at http://www.nccc.ucsf.edu/docs/QRG.pdf on May 17,
                  2012.
                  11
                     CDC, HIV Counseling with Rapid Tests. Accessed at
                  http://www.cdc.gov/hiv/topics/testing/resources/factsheets/rt_counseling.htm on
                  June 14, 2012.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                         3
                  may limit testing because some individual providers are uncomfortable
                  discussing patients’ behaviors and risk factors.
                  Gaining Patient Consent. CDC previously recommended gaining patient
                  consent for HIV tests separately from consent for other medical care; this
                  separate consent was thought to ensure that patients would be better
                  informed about HIV tests and that the tests would be voluntary. CDC now
                  recommends that providers offer information about HIV and obtain
                  consent for HIV tests in the same way as for other screening and
                  diagnostic tests, which is expected to reduce the stigma associated with
                  HIV testing and to increase the likelihood that patients will be tested.
                  CDC specifically states that a separate consent form should not be
                  required and is not recommended. In changing the recommended practice,
                  CDC cited a study of pregnant patients in which the use of HIV-specific
                  consent forms reduced testing rates. 12
                  Offering Tests on an Opt-out Basis. Historically, providers presented HIV
                  testing to patients as an elective medical test, asking whether they wanted
                  the test. This practice is known as opt-in testing. CDC now recommends
                  that providers present HIV tests as a standard practice for all patients
                  unless a patient specifically declines. This practice is known as opt-out
                  testing. CDC cites research indicating that making HIV tests standard can
                  increase the number of people who know their HIV status, identify
                  HIV-infected persons earlier in the disease’s development, reduce stigma
                  associated with HIV testing, and lead to increased acceptance of HIV
                  testing as a standard of care.
                  Other Federal and State Guidelines
                  Other entities, such as a Federal task force and some States, have
                  requirements or recommendations that conflict with some
                  CDC-recommended practices. For example, the United States Preventive
                  Services Task Force (USPSTF)—an independent body that provides
                  guidance on many health care matters—currently recommends targeted
                  HIV testing for high-risk groups, but released draft recommendations for
                  widespread screening in November 2012. 13 Additionally, research



                  12
                     CDC, “Revised Recommendations for HIV Testing of Adults, Adolescents, and
                  Pregnant Women in Health Care Settings,” Morbidity and Mortality Weekly Report,
                  September 22, 2006. Accessed at
                  http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5514a1.htm on June 19, 2010.
                  13
                     USPSTF, Screening for HIV. April 2007. Accessed at
                  http://www.uspreventiveservicestaskforce.org/uspstf/uspshivi.htm on September 5, 2012.
                  The USPSTF released draft recommendations on the topic November 20, 2012,
                  recommending that clinicians screen patients ages 15 to 65 years for HIV infection.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                       4
                  indicates that as late as 2011, four States had laws requiring that patients
                  sign a separate written consent form specifically for an HIV test.
                  HRSA-Funded Health Center Sites
                  HRSA funds grantees that administer four different types of health centers:
                  community health, migrant health, health care for the homeless, and public
                  housing primary care, collectively referred to as “health center sites.”
                  Such health center sites provide primary health care to millions of patients
                  each year and are critical to efforts to increase HIV testing. Health center
                  sites provide access to health care services for people who are uninsured
                  or publicly insured; geographically isolated; or otherwise medically
                  vulnerable, including populations that are disproportionately affected by
                  HIV, such as homeless persons, African Americans, and
                  Hispanics/Latinos. 14, 15, 16, 17, 18, 19
                  During 2011, health center sites provided services to more than 17 million
                  patients. 20 The American Recovery and Reinvestment Act of 2009
                  (ARRA) and the Patient Protection and Affordable Care Act of 2010
                  (ACA) increased health center funding. 21, 22 Estimates indicate that
                  combined, these additional funds will enable health centers to greatly
                  increase the number of patients served. 23, 24


                  14
                     National Alliance to End Homelessness (NAEH), Fact Sheet: Homelessness and
                  HIV/AIDS. Accessed at http://www.endhomelessness.org/content/article/detail/1073 on
                  June 12, 2012.
                  15
                     United States Census Bureau, State and County Quick Facts. Accessed at
                  http://quickfacts.census.gov/qfd/states/00000.html on June 12, 2012.
                  16
                     NACHC, America’s Health Centers (fact sheet). Accessed at
                  http://www.nachc.com/client/documents/America's%20Health%20Centers%20Fact%20S
                  heet%20August%202011.pdf on June 12, 2012.
                  17
                     CDC, HIV/AIDS Among African Americans. Accessed at
                  http://www.cdc.gov/hiv/topics/aa/resources/factsheets/aa.htm on June 12, 2012.
                  18
                     CDC, HIV/AIDS Among Hispanics/Latinos. Accessed at
                  http://www.cdc.gov/hiv/hispanics/resources/factsheets/hispanic.htm on June 12, 2012.
                  19
                     HRSA, About HRSA, Accessed at http://www.hrsa.gov/about/index.html on
                  June 19, 2012.
                  20
                     Office of Inspector General discussion with HRSA officials, June 26, 2012.
                  21
                     ARRA, P.L. 111-5, Division A, Title VIII. In 2009, Congress appropriated a one-time
                  direct investment of $2 billion in supplemental funding specifically for health centers.
                  22
                     ACA, P.L. 111-148 § 10503, Public Health Service Act § 330. The ACA created the
                  Community Health Centers Trust Fund and appropriated $11 billion in funding over
                  5 years for the health center program.
                  23
                     NACHC, Community Health Centers and Health Reform. Accessed at
                  http://www.nachc.com/client/Summary%20of%20Final%20Health%20Reform%20Packa
                  ge.pdf on June 12, 2012.
                  24
                     U.S. Department of Health and Human Services (HHS), Fiscal Year 2013, Budget in
                  Brief. Accessed at http://www.hhs.gov/budget/budget-brief-fy2013.pdf on September 27,
                  2012.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                         5
                  HIV Testing in Health Center Sites
                  The rates of HIV testing reported by health center sites have increased
                  slightly in recent years. In 2006, CDC found that HIV tests conducted in
                  community clinics (which include HRSA-funded health center sites
                  examined in this report) diagnosed 21 percent of all new HIV infections,
                  yet only 5 percent of community clinic patients were tested that year. 25 In
                  2011, 5 years after CDC released its recommendation for routine HIV
                  testing, HRSA reported slightly higher annual testing rates. Specifically,
                  in 2011, 7.4 percent of health center grantee patients aged 13–64 years—
                  the age group that CDC recommends for routine HIV testing—received
                  HIV tests at health center sites, up from 5.8 percent in 2010. 26
                  Federal regulations do not require HRSA-funded health centers to offer
                  HIV tests at each site. Rather, HRSA requires that a grantee either offer
                  HIV testing in some or all of its health center sites or refer patients to
                  other health care providers for HIV tests. Additionally, HRSA requires
                  each grantee to report into the Uniform Data System (UDS) the number of
                  HIV tests provided in its health center sites each year. 27 HRSA also
                  requires those grantees that receive funding through the Ryan White
                  HIV/AIDS Program (about 14 percent of health center grantees) to track
                  certain performance measures regarding HIV testing and care. 28 However,
                  this requirement does not cover health center grantees that do not receive
                  such funding. Additionally, HRSA has indicated plans to require that
                  grantees report HIV positivity, which is one of the core indicators for




                  25
                     The Forum for Collaborative HIV Research, Metrics and Evaluation Measures for
                  Monitoring the Implementation of Routine HIV Testing in the U.S., April 23, 2009.
                  Accessed at
                  http://www.hivforum.org/storage/hivforum/documents/metrics/hiv_testing_metrics_repor
                  t_12.14.09.pdf on May 23, 2012.
                  26
                     Office of Inspector General Staff discussion with HRSA officials, June 26, 2012.
                  Patients may have also received HIV tests before or after the 2011 time period included
                  in this 7.4-percent statistic or may have received HIV tests in other health care settings.
                  27
                     HRSA, Health Center Data. Accessed at
                  http://bphc.hrsa.gov/healthcenterdatastatistics/reporting/index.html on May 3, 2012.
                  28
                     HRSA, HAB [HIV/AIDS Bureau], HIV Performance Measures. Accessed at
                  http://hab.hrsa.gov/deliverhivaidscare/habperformmeasures.html on May 17, 2012. The
                  Ryan White HIV/AIDS Program provides HIV-related services to people who do not
                  have the financial resources or sufficient health care coverage for coping with the disease.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                            6
                  monitoring HHS-funded HIV prevention, treatment, and care services. 29, 30
                  HRSA has promoted the CDC recommendation for routine HIV testing as
                  well as other initiatives that encourage HIV testing. In September 2010,
                  HRSA released a Program Assistance Letter summarizing current
                  CDC-recommended practices for HIV testing and providing additional
                  resources for health centers that seek to increase HIV testing. In
                  January 2011, HRSA hosted a technical assistance call with health center
                  grantees to discuss the Office of National AIDS Policy’s (ONAP) National
                  HIV/AIDS Strategy and HRSA’s plans to enhance HIV care at health
                  center sites. 31
                  Some HRSA-funded health centers receive HIV-related guidance and
                  funding from other organizations. For example, NACHC provides health
                  centers with guidance on routine HIV testing. 32 Additionally, health
                  centers may receive special funding for HIV testing under CDC’s
                  Expanded HIV Testing for Disproportionately Affected Populations
                  Initiative; the Enhanced Comprehensive HIV Prevention Plan (ECHPP), a
                  project that supports HIV services for health centers in the 12 cities most
                  affected by the HIV epidemic; and the Ryan White HIV Program for early
                  intervention services, which include HIV testing. 33, 34, 35

                  METHODOLOGY
                  Scope
                  This report provides information about HIV testing practices at
                  HRSA-funded health center sites as reported in 2011. We examined the
                  health center sites’ adoption of the four testing-related practices specified
                  in CDC’s 2006 recommendation for routine HIV testing, the reported

                  29
                     HIV positivity is the number of positive HIV tests divided by the number of all HIV
                  tests administered.
                  30
                     The White House Office of National AIDS Policy Blog. Secretary Sebelius Approves
                  Indicators for Monitoring HHS-Funded HIV Services. Accessed at
                  http://blog.aids.gov/2012/08/secretary-sebelius-approves-indicators-for-monitoring-hhs-
                  funded-hiv-services.html on September 18, 2012.
                  31
                     ONAP, National HIV/AIDS Strategy for the United States, July 2010. Accessed at
                  www.whitehouse.gov on May 17, 2011.
                  32
                     NACHC, HIV Screening Model for Primary Care. Accessed at
                  http://www.nachc.com/hivmodel.cfm on May 16, 2012.
                  33
                     The 12 ECHPP cities are Atlanta; Baltimore; Chicago; Dallas; Houston; Los Angeles;
                  Miami; New York City; Philadelphia; San Francisco; San Juan; and Washington, D.C.
                  34
                     CDC, Funding Opportunity Announcement PS10-10138: Expanded HIV Testing for
                  Disproportionately Affected Populations. Accessed at
                  http://www.cdc.gov/hiv/topics/funding/ps10-10138/index.htm on May 16, 2012.
                  35
                     HRSA, The Ryan White HIV/AIDS Program, Part C. Accessed at
                  http://hab.hrsa.gov/livinghistory/programs/Part-C.htm on May 16, 2012.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                            7
                  influence of Federal recommendations on health center sites’ written HIV
                  testing policies and practices, and factors that affected the adoption of the
                  practices and affected HIV testing. The health center site responses
                  regarding testing practices are projectable to all HRSA-funded health
                  center sites providing primary care in 2010.
                  Sample
                  HRSA data indicate that 8,144 health center sites received funding in
                  November 2010. We selected a simple random sample of 500 health
                  center sites from these.
                  Data Collection
                  To determine the extent to which HRSA-funded health center sites that
                  provide primary care adopted the CDC-recommended practices for routine
                  HIV testing, we surveyed 500 health center sites about their HIV testing
                  practices during May–November 2011. During data collection, we
                  excluded 149 of the 500 sampled health center sites because they did not
                  provide primary care, they were no longer in operation, or their associated
                  health center grantees did not respond to our inquiries. For example, some
                  health center sites provided only dental or gynecological services and
                  other health center sites had closed. We received responses from 324 of
                  the eligible 351 health center sites, a 92-percent response rate. To
                  encourage responses, we sent emails and postcards to health center sites
                  and made a minimum of three phone calls. The study results are
                  projectable to the estimated population of 5,275 HRSA-funded health
                  center sites that provide primary health care.
                  Data Analysis
                  We analyzed survey responses to determine HRSA-funded health center
                  sites’ HIV testing practices. We used the following criteria to calculate
                  adoption rates for each of the four CDC-recommended practices for
                  routine HIV testing:
                  Determining Whom To Test. On the basis of the wording of the CDC
                  recommendation regarding determining which patients to offer HIV tests,
                  we categorized health center sites into three groups:
                       1) The first group consists of health center sites that provided HIV
                          tests only to patients who requested a test and/or patients who
                          showed symptoms of HIV. This group is too limited to be aligned
                          with the CDC recommendation for routine testing.
                       2) We identified a second group of health center sites that offered
                          tests to patients with certain risk factors, which CDC recommends
                          is appropriate only for patients who have previously been tested for
                          HIV and in health care facilities that have established a prevalence



HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                  8
                            of undiagnosed HIV of less than 0.1 percent among their patient
                            populations.
                       3) The third group consists of health center sites that tested all
                          patients 13–64 years of age, without taking into account
                          patient-specific risk factors. CDC recommends that most health
                          care facilities follow this testing pattern.
                  Providing Prevention Counseling. Regarding prevention counseling, we
                  considered all health center site responses to be in alignment with the
                  CDC recommendation unless the health center site indicated that it
                  provided prevention counseling to all patients, which CDC specifically
                  does not recommend.
                  Gaining Patient Consent. Regarding gaining patient consent, we
                  considered all health center site responses to be in alignment with the
                  CDC recommendation unless the health center site indicated that it used a
                  separate written consent form, which CDC specifically does not
                  recommend.
                  Offering Tests on an Opt-out Basis. Regarding offering tests on an opt-out
                  basis, we considered all health center site responses to be in alignment
                  with the CDC recommendation unless the health center site indicated that
                  it required some or all patients to specifically indicate that they wanted an
                  HIV test, which CDC refers to as “opt-in” testing.
                  We also determined whether health center sites had written HIV testing
                  policies and examined factors that affected the adoption of each
                  recommended practice, such as whether health center sites received
                  funding specific to HIV testing or partnered with other organizations in the
                  community. See Appendix B for estimates and confidence intervals.
                  Limitations
                  We did not verify the accuracy of the information provided by health
                  center sites. However, we attempted to identify inconsistencies, unclear
                  responses, abbreviated responses, and indications that the respondent may
                  have misunderstood the question. We resolved these issues when possible
                  and in some cases followed up with respondents to clarify. Additionally,
                  respondents often described patient perceptions and behaviors. However,
                  we did not verify with patients that the respondents’ descriptions of their
                  perceptions or behaviors were accurate.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.



HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                              9
                  FINDINGS
                  Health center sites have not fully adopted all four
                  CDC-recommended practices.
                  Ninety percent of HRSA-funded health center sites offered HIV testing
                  but had not fully adopted all four of CDC’s recommended practices. The
                  remaining 10 percent, which did not offer HIV testing, typically referred
                  patients to other providers, such as local health departments, for HIV tests.
                  Determining Whom To Test. Twenty percent of health center sites that
                  offered HIV tests reported testing all patients 13–64 years of age. CDC
                  recommends this approach in health center sites that have not established a
                  prevalence of undiagnosed HIV of less than 0.1 percent in their patient
                  populations and for patients not previously tested for HIV. An additional
                  1 percent reported testing all adults, but not teens. Fifty-five percent
                  targeted high-risk patients, such as those with histories of injection drug
                  use. This approach aligns with the USPSTF recommendation and is
                  consistent with the CDC-recommended practice if patients have
                  previously been tested for HIV or if health center sites have established a
                  prevalence of undiagnosed HIV of less than 0.1 percent in their patient
                  populations. However, few health center sites in our sample reported
                  testing enough patients to establish their prevalence of undiagnosed HIV. 36
                  The remaining 24 percent of sites offered HIV tests only when patients
                  requested a test or had symptoms of HIV or took some other approach.
                  Health center sites that reported testing all patients aged 13–64 also
                  reported additional practices that suggest they have a greater focus on HIV
                  prevention and care than other health center sites. For example, these
                  health center sites were more likely to report that they have written HIV
                  testing policies regarding who should receive an HIV test. 37 They were



                  36
                     Many health center sites in this group likely are not aligned with this
                  CDC-recommended practice because they have not tested enough patients to establish a
                  prevalence of undiagnosed HIV of less than 0.1 percent in their patient populations. CDC
                  recommends this practice if the HIV-positive diagnostic yield is less than 1 per
                  1,000 patients tested. In our sample, 216 health center sites reported the number of HIV
                  tests they had conducted; only 15 had performed at least 1,000 tests during our review
                  period.
                  37
                     Sixty-six percent of health center sites that tested all patients 13–64 years of age had
                  written HIV testing policies, whereas only 38 percent of health center sites that did not
                  test all such patients had written HIV testing policies. This difference is statistically
                  significant (p < 0.0001). The 95-percent confidence interval for the 66-percent estimate
                  is 54.0–78.2 percent.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                            10
                  also more likely than other health center sites to report offering care to
                  patients already infected with HIV. 38
                  Providing Prevention Counseling. Twenty-nine percent of health center
                  sites that offered HIV testing adopted the CDC recommendation of not
                  requiring prevention counseling for every patient. The remaining
                  71 percent provided prevention counseling to all patients either before or
                  after their HIV tests. CDC recommends that prevention counseling not be
                  required as a part of HIV screening programs. A goal of this
                  recommended practice is to reduce counseling time and thereby reduce the
                  time required to provide HIV tests in busy health care settings.
                  Accordingly, providers in health center sites that encourage providers to
                  determine appropriate prevention counseling spent less time providing
                  counseling to patients than providers in other health center sites. 39
                  Gaining Patient Consent. Twenty-seven percent of health center sites that
                  offered HIV testing gained consent for such tests in the same way as for
                  other screening and diagnostic tests, a practice that CDC recommends to
                  reduce the stigma associated with HIV tests. The remaining 73 percent
                  used a separate form to gain consent for HIV tests as either one method for
                  gaining consent (54 percent) or as the only method for gaining consent
                  (19 percent). CDC recommends that providers gain patient consent for an
                  HIV test through general consent for medical care, regardless of whether
                  consent is written or verbal, and specifies that it does not recommend a
                  separate consent form for HIV testing.
                  Offering Tests on an Opt-out Basis. Fifteen percent of health center sites
                  that offered HIV testing provided HIV tests as standard, opt-out tests. The
                  remaining 85 percent did not adopt opt-out HIV testing. Specifically,
                  49 percent offered only opt-in testing, which required patients to indicate
                  that they wanted an HIV test. The other 36 percent offered HIV testing
                  using a combination of the two approaches, allowing individual providers
                  to determine whether to provide HIV testing on an opt-in or opt-out basis.
                  Health center sites that offered HIV tests as standard, opt-out tests were



                  38
                     Fifty-four percent of health center sites that tested all patients 13–64 years of age
                  provided HIV care, whereas 23 percent of health center sites that did not test all such
                  patients provided HIV care. This difference is statistically significant (p < 0.0001). The
                  95-percent confidence interval for the 54-percent estimate is 41.6–66.9 percent.
                  39
                     Of health center sites that did not require prevention counseling for all patients,
                  25 percent reported that providers spent 5 minutes or more counseling patients. By
                  comparison, 57 percent of health center sites that provided prevention counseling to all
                  patients before or after an HIV test also reported that providers spent 5 minutes or more
                  counseling patients. This difference is statistically significant (p < 0.0001).




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                           11
                  more likely than other health center sites to report increases in HIV testing
                  over the last 5 years. 40

                  The CDC recommendation influenced most health
                  center sites’ written HIV testing policies
                  Most health center sites—76 percent—reported having written HIV testing
                  policies. Their written policies covered topics such as gaining consent,
                  prevention counseling, and patients who should be tested. 41 Even though
                  health center sites had not fully adopted all four CDC-recommended
                  practices, 84 percent reported that CDC’s recommendation influenced
                  their written HIV testing policies. Ninety percent reported updating their
                  policies since 2006, the year CDC released its routine testing
                  recommendation. Health center sites with written HIV testing policies
                  reported that their policies were also influenced by Federal
                  recommendations issued by the USPSTF (15 percent) and by other
                  organizations, including the American Medical Association (7 percent)
                  and the World Health Organization (2 percent).

                  Health center sites reported that financial resources
                  and other factors affected adoption of the
                  CDC-recommended practices and affected HIV testing
                  Health center sites reported factors that affected their adoption of the
                  CDC-recommended practices and that more generally affected their HIV
                  testing.
                  Financial resources. Forty-three percent of health center sites reported
                  that they received funding specifically for HIV testing, from sources such
                  as CDC and the Ryan White program. Health center sites that received
                  funding for HIV testing were more likely to adopt two of the four
                  CDC-recommended practices for HIV testing. These health center sites
                  were more likely to adopt the practice of testing all patients 13–64 years of




                  40
                     Seventy-two percent of health center sites that offered opt-out HIV tests reported that
                  HIV testing had increased over the past 5 years. In comparison, 48 percent of other
                  health center sites reported increased testing over the past 5 years. This difference is
                  statistically significant (p < 0.0001). The 95-percent confidence interval for the 72-percent
                  estimate is 58.6–85.6 percent.
                  41
                     The remaining 24 percent of health center sites reported that they did not have written
                  policies or other written guidance regarding HIV testing.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                             12
                  age and to offer tests on an opt-out basis than those that did not receive
                  HIV-specific funding. 42, 43
                  Further, health center sites also reported that lack of resources on the part
                  of both patients and health center sites limited HIV testing. For example,
                  32 percent of health center sites reported that they can offer only a limited
                  number of free or reduced-cost tests, and 24 percent reported that patients
                  often could not afford to pay for testing themselves. Respondents from
                  one health center site reported that patients who were not eligible for free
                  HIV tests were unlikely to pay for tests, and respondents from another
                  health center site reported that patients had difficulty paying even the
                  small office visit fee, let alone an additional testing fee.
                  Existence of Partnerships. Forty-three percent of health center sites
                  reported working with other organizations in their communities to combat
                  HIV. This activity was associated with the practice of testing all patients
                  aged 13–64. 44 Partner organizations worked with health center sites on
                  efforts such as providing testing, increasing community awareness of HIV,
                  improving community planning for HIV prevention, and reducing HIV
                  transmission in the community. Health center sites reported partnering
                  with other organizations including State and local health departments,
                  local Ryan White programs, universities, churches, and homeless clinics
                  on yearly events, such as National HIV Testing Day, and at seasonal
                  events, such as local health fairs, as well as on collaborating on long-term
                  planning through HIV reduction task forces and consortiums.
                  Perception of Risk. Health center sites reported that patient and staff
                  perception of low patient risk for HIV limited HIV testing. Although
                  some patients may accurately perceive themselves to be at low risk, the

                  42
                     Sixty-eight percent of health center sites that tested all patients aged 13–64 also
                  reported that they received funding specifically for HIV testing. In comparison,
                  37 percent of health center sites that did not test all such patients received funding. This
                  difference was statistically significant (p < 0.0001). The 95-percent confidence interval
                  for
                  43
                      the 68-percent estimate is 55.9–79.7 percent.
                     Health center sites that offered HIV testing on an opt-out basis reported receiving
                  funding specifically for HIV testing, a resource that may allow for greater adoption of
                  this recommended practice. Specifically, 63 percent of health center sites that offered
                  tests on an opt-out basis received HIV-specific funds. In comparison, 40 percent of
                  health center sites that required patients to request an HIV test also received HIV-specific
                  funds. This difference was statistically significant (p < 0.0001). The 95-percent
                  confidence interval for the 63-percent estimate is 48.2–77.4 percent.
                  44
                     Sixty-one percent of health center sites that tested all patients 13–64 years of age also
                  partnered with organizations in their communities to promote HIV awareness. In
                  comparison, 40 percent of health center sites that did not test all such patients partnered
                  with others in their communities. This difference was statistically significant
                  (p < 0.0001). The 95-percent confidence interval for the 61-percent estimate is
                  48.6–73.4 percent.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                             13
                  HIV epidemic has broadened and patients not considered high risk may
                  still be infected. However, 60 percent of health center sites reported that
                  they believed their patients did not perceive themselves to be at risk, and
                  most of these health center sites also reported that their staffs did not
                  perceive the centers’ patient populations to be at high risk. Health center
                  sites that do not perceive their patient populations to be at high risk may
                  not believe that routine testing is appropriate. In many cases, health center
                  site respondents attributed staff and patient perception of HIV risk to a
                  lack of education about HIV and lack of awareness that the effectiveness
                  of testing on the basis of patient risk factors has diminished.
                  Patient comfort. Health center sites also reported that they perceive
                  patients as being uncomfortable requesting an HIV test or receiving test
                  results. Specifically, 38 percent of health center sites reported that
                  patients were not comfortable requesting an HIV test and that this limited
                  testing in the health center sites. Respondents from several health center
                  sites explained that patients often appeared concerned that their requests
                  for HIV testing or their test results would not remain confidential. For
                  example, respondents from a health center site in a small community
                  reported that patients might be inhibited from discussing HIV testing
                  because the office staff know most people in the community. Another
                  20 percent of health center sites reported that patients were not willing to
                  wait or return for HIV test results. Several health center sites reported that
                  patients do not wait or return because they are afraid to learn that they may
                  be infected. For example, respondents from one health center site reported
                  that some patients would rather not know their HIV status and that they
                  were likely unaware of the treatments available and the extended life
                  expectancy once treatment begins.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                              14
                  CONCLUSION AND RECOMMENDATIONS
                  HRSA-funded health center sites provide primary health care to millions
                  of patients each year and are critical to efforts to test patients and reduce
                  the spread of HIV. CDC estimates that one in five people in the United
                  States who are living with HIV do not know their HIV status and,
                  therefore, are more likely to transmit the disease to others. CDC
                  recommends that health care facilities determine their HIV testing
                  approaches on the basis of data and evidence about the prevalence of
                  undiagnosed HIV in the patient population. CDC also recommends four
                  key practices for HIV testing.
                  Health center sites have not fully adopted all four of CDC’s recommended
                  practices. Most had written HIV testing policies influenced by CDC’s
                  routine testing recommendation. Health center sites reported that several
                  factors influenced their adoption of the recommended practices and
                  affected their HIV testing, such as financial resources, existence of
                  partnerships with others in their communities, patient and staff perception
                  of patient risk of contracting HIV, and patient comfort in requesting tests
                  and hearing test results.
                  We recommend that HRSA:
                  Require health center grantees to establish and report to
                  HRSA two relevant HIV testing metrics: prevalence and
                  positivity
                  CDC recommends HIV testing that is based, in part, on prevalence of
                  undiagnosed HIV in the patient population. HRSA should require health
                  center grantees to determine the prevalence of undiagnosed HIV in their
                  patient populations and report this to HRSA. Additionally, recognizing
                  that some grantees will establish prevalence more quickly than others,
                  HRSA should require grantees to report to it regarding their progress
                  toward establishing prevalence. CDC indicates that once a grantee tests
                  enough patients to establish a prevalence of less than 0.1 percent, routine
                  testing is no longer warranted. However, few health center sites in our
                  sample reported testing enough patients to establish their prevalence of
                  undiagnosed HIV, suggesting that a HRSA requirement is needed to make
                  progress toward identifying which health center sites should routinely
                  perform HIV tests.
                  As health center grantees work toward establishing the prevalence of
                  undiagnosed HIV in their patient populations, they should also report to
                  HRSA their HIV positivity—the number of positive HIV tests divided by
                  the number of all HIV tests administered. HRSA already requires each
                  grantee to enter into the UDS the number of HIV tests provided in the
                  grantee’s health center sites each year. However, HRSA does not collect


HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                  15
                  information about how many of those HIV tests resulted in HIV-positive
                  diagnoses. Recently, HHS released seven core indicators for monitoring
                  HHS-funded HIV prevention, treatment, and care, including HIV
                  positivity. Required reporting of HIV positivity would align data
                  collection by HRSA health center grantees with that of other HHS-funded
                  HIV programs and services. Further, required reporting would raise
                  awareness of HIV testing among health center sites that are critical to
                  reducing the spread of HIV.
                  Provide additional guidance and education regarding the
                  CDC-recommended practices and HIV testing
                  HRSA provided guidance regarding the CDC-recommended practices
                  through AIDS Education and Training Centers and a Program Assistance
                  Letter and provided education about HIV testing through a technical
                  assistance call with health center grantees. However, our findings suggest
                  that more guidance and education regarding these practices and HIV
                  testing is needed. HRSA could provide guidance and education by
                  making additional technical assistance calls, issuing program assistance
                  letters, and offering additional training sessions and educational
                  opportunities to health center grantees and sites. Guidance should include
                  methods for establishing prevalence and for determining HIV positivity.
                  The guidance should include strategies regarding how to incorporate the
                  recommended practices into written HIV testing policies and into primary
                  care services. HRSA guidance should also encourage health center sites to
                  partner with other organizations in their communities and to raise
                  awareness among patients and staff about patient risk for HIV infection.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                            16
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  HRSA concurred with our recommendations and described past and
                  current activities to improve HIV testing in health centers. Regarding the
                  first recommendation to establish and report metrics for HIV testing,
                  HRSA stated that it will begin collecting HIV positivity rates as part of
                  health centers’ annual UDS reports. HRSA also stated that it will work
                  with CDC to assess HIV prevalence rates in health center service areas.
                  Regarding the second recommendation to provide additional guidance and
                  education, HRSA stated it that it will continue to support health centers by
                  developing new resources and enhancing existing resources.
                  We did not make any changes to the report on the basis of HRSA’s
                  comments. For the full text of HRSA’s comments, see Appendix C.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                             17
                  APPENDIX A
                  Centers for Disease Control and Prevention’s Revised Recommendations
                  for HIV Testing of Adults, Adolescents, and Pregnant Women in
                                       45
                  Health-Care Settings

                  Recommendations for Adults and Adolescents
                  CDC recommends that diagnostic HIV testing and opt out HIV screening
                  be a part of routine clinical care in all health-care settings while also
                  preserving the patient’s option to decline HIV testing and ensuring a
                  provider-patient relationship conducive to optimal clinical and preventive
                  care. The recommendations are intended for providers in all health-care
                  settings, including hospital EDs [emergency departments], urgent-care
                  clinics, inpatient services, STD [sexually transmitted disease] clinics or
                  other venues offering clinical STD services, tuberculosis (TB) clinics,
                  substance abuse treatment clinics, other public health clinics, community
                  clinics, correctional health-care facilities, and primary care settings. The
                  guidelines address HIV testing in health-care settings only; they do not
                  modify existing guidelines concerning HIV counseling, testing, and
                  referral for persons at high risk for HIV who seek or receive HIV testing
                  in nonclinical settings (e.g., community based organizations, outreach
                  settings, or mobile vans).
                  Screening for HIV Infection
                  • In all health-care settings, screening for HIV infection should be
                  performed routinely for all patients aged 13–64 years. Health-care
                  providers should initiate screening unless prevalence of undiagnosed HIV
                  infection in their patients has been documented to be <0.1%. In the
                  absence of existing data for HIV prevalence, health-care providers should
                  initiate voluntary HIV screening until they establish that the diagnostic
                  yield is <1 per 1,000 patients screened, at which point such screening is no
                  longer warranted.
                  • All patients initiating treatment for TB should be screened routinely for
                  HIV infection.
                  • All patients seeking treatment for STDs, including all patients attending
                  STD clinics, should be screened routinely for HIV during each visit for a



                  45
                    The material in this appendix is quoted directly from Centers for Disease Control and
                  Prevention (CDC), “Revised Recommendations for HIV Testing of Adults, Adolescents,
                  and Pregnant Women in Health-Care Settings,” Morbidity and Mortality Weekly Report,
                  September 22, 2006. Accessed at
                  http://www.cdc.gov/mmwr/preview/mmwrhtml/rr5514a1.htm on June 19, 2012.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                            18
                  new complaint, regardless of whether the patient is known or suspected to
                  have specific behavior risks for HIV infection.
                  Repeat Screening
                  • Health-care providers should subsequently test all persons likely to be at
                  high risk for HIV at least annually. Persons likely to be at high risk
                  include injection-drug users and their sex partners, persons who exchange
                  sex for money or drugs, sex partners of HIV-infected persons, and MSM
                  [men who have sex with men] or heterosexual persons who themselves or
                  whose sex partners have had more than one sex partner since their most
                  recent HIV test.
                  • Health-care providers should encourage patients and their prospective
                  sex partners to be tested before initiating a new sexual relationship.
                  • Repeat screening of persons not likely to be at high risk for HIV should
                  be performed on the basis of clinical judgment.
                  • Unless recent HIV test results are immediately available, any person
                  whose blood or body fluid is the source of an occupational exposure for a
                  health-care provider should be informed of the incident and tested for HIV
                  infection at the time the exposure occurs.
                  Consent and Pretest Information
                  • Screening should be voluntary and undertaken only with the patient’s
                  knowledge and understanding that HIV testing is planned.
                  • Patients should be informed orally or in writing that HIV testing will be
                  performed unless they decline (opt out screening). Oral or written
                  information should include an explanation of HIV infection and the patient
                  should be offered an opportunity to ask questions and to decline testing.
                  With such notification, consent for HIV screening should be incorporated
                  into the patient’s general informed consent for medical care on the same
                  basis as are other screening or diagnostic tests; a separate consent form for
                  HIV testing is not recommended.
                  • Easily understood informational materials should be made available in
                  the languages of the commonly encountered populations within the service
                  area. The competence of interpreters and bilingual staff to provide
                  language assistance to patients with limited English proficiency must be
                  ensured.
                  • If a patient declines an HIV test, this decision should be documented in
                  the medical record.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                 19
                  Diagnostic Testing for HIV Infection
                  • All patients with signs or symptoms consistent with HIV infection or an
                  opportunistic illness characteristic of AIDS should be tested for HIV.
                  • Clinicians should maintain a high level of suspicion for acute HIV
                  infection in all patients who have a compatible clinical syndrome and who
                  report recent high-risk behavior. When acute retroviral syndrome is a
                  possibility, a plasma RNA test should be used in conjunction with an HIV
                  antibody test to diagnose acute HIV infection.
                  • Patients or persons responsible for the patient’s care should be notified
                  orally that testing is planned, advised of the indication for testing and the
                  implications of positive and negative test results, and offered an
                  opportunity to ask questions and to decline testing. With such
                  notification, the patient’s general consent for medical care is considered
                  sufficient for diagnostic HIV testing.
                  Similarities and Differences Between Current and Previous
                  Recommendations for Adults and Adolescents
                  Aspects of these recommendations that remain unchanged from previous
                  recommendations are as follows:
                  • HIV testing must be voluntary and free from coercion. Patients must not
                  be tested without their knowledge.
                  • HIV testing is recommended and should be routine for persons attending
                  STD clinics and those seeking treatment for STDs in other clinical
                  settings.
                  • Access to clinical care, prevention counseling, and support services is
                  essential for persons with positive HIV test results.
                  Aspects of these recommendations that differ from previous
                  recommendations are as follows:
                  • Screening after notifying the patient that an HIV test will be performed
                  unless the patient declines (opt-out screening) is recommended in all
                  health-care settings. Specific signed consent for HIV testing should not be
                  required. General informed consent for medical care should be considered
                  sufficient to encompass informed consent for HIV testing.
                  • Persons at high risk for HIV should be screened for HIV at least
                  annually.
                  • HIV test results should be provided in the same manner as results of
                  other diagnostic or screening tests
                  • Prevention counseling should not be required as a part of HIV screening
                  programs in health-care settings. Prevention counseling is strongly


HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                  20
                  encouraged for persons at high risk for HIV in settings in which risk
                  behaviors are assessed routinely (e.g., STD clinics) but should not have to
                  be linked to HIV testing.
                  • HIV diagnostic testing or screening to detect HIV infection earlier
                  should be considered distinct from HIV counseling and testing conducted
                  primarily as a prevention intervention for uninfected persons at high risk.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                21
                        APPENDIX B
                        Table B-1: Point Estimates and Confidence Intervals
                                                                                                        95-percent
                                                                              Sample        Point    Confidence Interval
Estimate Characteristic
                                                                                Size     Estimate
                                                                                                        Lower      Upper

Offered HIV tests                                                                 324       89.8%       85.9%      92.9%

Rates of Adoption of Routine HIV Testing Practices Among Health Center Sites That Offered Testing

Determining Whom To Test

Tested all patients aged 13–64*                                                   289       20.4%     15.9%        25.5%

   Had a written HIV testing policy                                                59       66.1%     54.0%        78.2%

   Offered HIV care                                                                59       54.2%     41.6%        66.9%

Tested all adults                                                                 289        1.0%      0.2%         3.0%

Tested and targeted high-risk patients *                                          289       54.7%     49.1%        60.3%

Tested only when patients requested or had symptoms                               289       22.8%     18.1%        28.1%

Tested on the basis of some other approach                                        289        1.0%      0.2%         3.0%

Did not test all patients aged 13–64**                                            289       79.6%     74.5%        84.1%

   Had a written HIV testing policy                                               230       37.6%     31.4%        43.7%

   Offered HIV care                                                               230       23.0%     17.7%        29.1%

Providing Prevention Counseling

Did not require prevention counseling for all patients *                          286       28.7%     23.6%        33.8%

   Spent 5 minutes or more counseling                                              67       25.4%     15.0%        35.7%

Provided prevention counseling for all patients before or after HIV tests         286       71.3%     66.2%        76.4%

   Spent 5 minutes or more counseling                                             202       56.9%     50.3%        63.6%

Gaining Patient Consent

Gained patient consent with consent for all medical care *                        287       26.8%     21.8%        31.8%

Gained patient consent only through a separate HIV-specific written
                                                                                  287       19.2%     14.8%        24.2%
consent form
Gained patient consent through a separate HIV-specific written consent
                                                                                  287       54.0%       48.4%        59.6%
along with other methods
* Indicates a practice recommended by the Centers for Disease Control and Prevention (CDC).
** Indicates a practice recommended by CDC if patients have previously been tested for HIV or if prevalence of undiagnosed
HIV infection is less than 0.1 percent.
                                                                                                    Continued on next page




   HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                                     22
                                                                                                        95-percent
                                                                               Sample      Point     Confidence Interval
Estimate Characteristic
                                                                                 Size   Estimate
                                                                                                       Lower      Upper

Offering Tests on an Opt-Out Basis

Provided HIV tests as standard, opt-out tests *                                   288     14.9%       11.0%        19.6%

   Reported increased testing                                                      43     72.1%       58.6%        85.6%

Did not provide HIV tests as standard, opt-out tests                              288     85.1%       82.5%        90.2%

   Offered tests on an opt-in basis                                               288     48.9%       43.3%        54.6%

   Used a combination of opt-out and opt-in approaches                            288     35.8%       30.4%        41.2%

   Reported increased testing                                                     245     47.8%       41.7%        53.9%

Health Center Site HIV Testing Policies

Health center site had a written HIV testing policy                               324     75.6%        70.6%       80.2%

   HIV testing policy was influenced by CDC recommendation                        245     83.7%        78.4%       88.1%

   HIV testing policy had been updated since 2006                                 245     89.8%        85.3%       93.3%

   HIV testing policy was influenced by the United States Preventive
                                                                                  245     15.1%        10.9%       20.2%
      Services Task Force

   HIV testing policy was influenced by the American Medical Association          245      6.9%         4.1%       10.9%

   HIV testing policy was influenced by the World Health Organization             245      1.6%         0.5%        4.1%

Health center site did not have a written HIV testing policy                      324     24.4%        19.8%       29.4%

Health Center Site-Identified Factors That Affected Adoption of CDC-Recommended Practices and HIV Testing

Received HIV-specific funding                                                     324     43.2%        37.9%       48.5%

   Tested all patients 13–64 years of age                                         140     67.8%        55.9%       79.7%

   Did not test all patients 13–64 years of age                                   140     36.9%        30.8%       43.0%

   Offered HIV tests as standard, opt-out                                         140     62.8%        48.2%       77.4%

   Did not offer HIV tests as standard, opt-out                                   140     40.3%        34.4%       46.3%

Reported that ability to offer only a limited number of free or reduced-cost
                                                                                  331     31.7%        26.8%       36.6%
tests affected HIV testing

Reported that patients often could not afford to pay for an HIV test              329     24.0%        19.5%       29.0%

Partnered with others in the community                                            321     42.6%        37.4%       47.9%

   Tested all patients 13–64 years of age                                         137     61.0%        48.6%       73.4%

   Did not test patients 13–64 years of age                                       137     40.1%        33.9%       46.3%
* Indicates a practice recommended by CDC.
                                                                                                   Continued on next page




   HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                                    23
                                                                                                                     95-percent
                                                                                        Sample         Point      Confidence Interval
Estimate Characteristic
                                                                                          Size      Estimate
                                                                                                                    Lower         Upper

Identified perception of risk as a factor                                                    324        59.7%       54.6%          64.8%

   Patients not comfortable requesting an HIV test                                           324        37.7%       32.7%          42.8%

   Patients not willing to wait or return for test results                                   324        20.2%       16.0%          25.0%
Source: Office of Inspector General (OIG) analysis of responses from Health Resources and Services Administration (HRSA)-funded health
center sites, 2012.




   HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                                                      24
Table B-2: Comparison of Site Characteristics

                                                                                        Sample
Comparison of Site Characteristics                                                                Z Value   P Value*
                                                                                         Size

Sixty-six percent of health center sites that tested all patients 13–64 years of age
had written HIV testing policies, whereas 38 percent of health center sites that did        125     16.97    <0.0001
not test all such patients had written HIV testing policies.

Fifty-four percent of health center sites that tested all patients 13–64 years of age
provided HIV care, whereas 23 percent of health center sites that did not test all           84      8.81    <0.0001
such patients provided HIV care.
Of health center sites that did not require prevention counseling for all patients,
25 percent reported that providers spent 5 minutes or more counseling patients,
whereas 57 percent of health center sites that provided prevention counseling to all        132      34.4    <0.0001
patients before or after an HIV test also reported that providers spent 5 minutes or
more counseling patients.
Seventy-two percent of health center sites that offered opt-out HIV tests reported
that HIV testing had increased over the past 5 years, whereas 48 percent of other           149     28.76    <0.0001
health center sites reported increased testing over the past 5 years.

Sixty-eight percent of health center sites that tested all patients aged 13–64 also
reported that they received funding specifically for HIV testing, whereas 37 percent        125     16.24    <0.0001
of health center sites that did not test all such patients received such funding.

Sixty-three percent of health center sites that offered tests on an opt-out basis
received funding specifically for HIV testing, whereas 40 percent of health center          127     16.24    <0.0001
sites that required patients to request an HIV test received such funding.
Sixty-one percent of health center sites that tested all patients 13–64 years of age
partnered with organizations in their communities to promote HIV awareness,
                                                                                            127      19.7    <0.0001
whereas versus 40 percent of health center sites that did not test all such patients
had such partnerships.
*A p value of less than 0.01 indicates a statistically significant difference.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                                   25
                    APPENDIXC
                    Agency Comments



                    DEPARTMENT OF HEALTH&. HUMAN SERVICES                               Health Resources and Services
                                                                                        Administration


                                                                                        Rockville MD 20857




            TO: 	         Daniel R. Levinson
                          Inspector General, HHS 010

            FROM: 	       Administrator, HRSA

            SUBJECT: 	 OIG Draft Report Comments: HIV Testing in HRSA-Funded Health Center Sites,
                       OEI-06-l 0-00290

            In response to OIG's request for comments on the draft report, "HIV Testing in HRSA-Funded
            Health Center Sites," OEI-06-10-00290, attached are the Health Resources and Services
            Administration's (HRSA) remarks with actions to OIG's recommendations.

            If you have any questions, please contact Angela Landeen in HRSA's Office of Planning,
            Analysis, and Evaluation at 301-443-1550.

                                                                /S/
                                                       Mary K. Wakefield, Ph.D., R.N.

            Attachments
            Tab A: HRSA Response to Draft Report
            Tab B: OIG Draft Report




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                                                        26
HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)   27
HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)   28
HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)   29
HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)   30
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Kevin Golladay, Regional
                  Inspector General for Evaluation and Inspections in the Dallas regional
                  office; Blaine Collins, Deputy Regional Inspector General; and
                  Ruth Ann Dorrill, Deputy Regional Inspector General.
                  Amy Ashcraft served as the team leader for this study, and Lyndsay Patty
                  served as the project leader. Other principal Office of Evaluation and
                  Inspections staff from the Dallas regional office who conducted this study
                  include Leah Bostick, Tom Browning, Ben Gaddis, Jennifer Gist, and
                  Malinda Hicks. Central office staff who provided support include
                  Heather Barton, Kevin Farber, and Christine Moritz.




HIV Testing in HRSA-Funded Health Center Sites (OEI-06-10-00290)                               31
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
